("~
,::1   DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Office of Inspector General


                                                                                     Region IX
                                                                                     Office of Audit Services
                                                                                            h
                                                                                     90 - i Street, Suite 3-650
   APR 152009                                                                        San Francisco, CA 94103




   Report Number: A-09-09-00047

   Mr. Stephen Palmore
   Regional Compliance Officer
   Hilo Medical Center
   1190 Waianuenue Avenue
   Hilo, Hawaii 96720-2020

   Dear Mr. Palmore:

   Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
   General (GIG), final report entitled "Review of Oxaliplatin Billing at Hilo Medical Center for
   Calendar Year 2004." We will forward a copy of this report to the HHS action official noted on
   the following page for review and any action deemed necessary.

   The HHS action official will make final determination as to actions taken on all matters reported.
   We request that you respond to this official within 30 days from the date of this letter. Your
   response should present any comments or additional information that you believe may have a
   bearing on the final determination.

   Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
   available to the public to the extent that information in the report is not subject to exemptions in
   the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

   If you have any questions or comments about this report, please call Tom Lin, Senior Auditor, at
   (415) 437-8374 or Alice Norwood, Audit Manager, at (415) 437-8360. Please refer to
   report number A-09-09-00047 in all correspondence.

                                                  Sincerely,

                                              27\~-<~~
                                                  Lori A. Ahlstrand
                                                  Regional Inspector General
                                                   for Audit Services


   Enclosure
Page 2 - Mr. Stephen Palmore


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East lih Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





          REVIEW OF

    OXALIPLATIN BILLING AT

    HILO MEDICAL CENTER

   FOR CALENDAR YEAR 2004





                    Daniel R. Levinson

                     Inspector General


                       April 2009

                      A-09-09-00047

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office oflnspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY


BACKGROUND


Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. Medicare uses an outpatient prospective payment system to pay for hospital outpatient
services.

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1,2003, through
December 31,2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

Hilo Medical Center is an acute-care hospital located in Hilo, Hawaii. We reviewed payments to
Hilo Medical Center for oxaliplatin provided to Medicare beneficiaries during calendar year
(CY) 2004.

OBJECTIVE

Our objective was to determine whether Hilo Medical Center billed Medicare for oxaliplatin in
accordance with Medicare requirements.

SUMMARY OF FINDING

During CY 2004, Hilo Medical Center did not bill Medicare in accordance with Medicare
requirements for the two oxaliplatin outpatient claims that we reviewed. Hilo Medical Center
billed Medicare for an incorrect number of service units for those claims and received
overpayments totaling approximately $59,980. The overpayments occurred because of
confusion related to two oxaliplatin Healthcare Common Procedure Coding System codes that
had different service unit sizes.

RECOMMENDATIONS

We recommend that Hilo Medical Center:

   •	 work with the Medicare administrative contractor to adjust the two claims and refund
      approximately $59,980 in identified overpayments and

   •	 ensure that service units of drugs billed correspond to units of drugs administered.

HILO MEDICAL CENTER COMMENTS

In its comments on our draft report, Hilo Medical Center stated that it had submitted the
repayments and implemented corrective actions going forward. Hilo Medical Center's
comments are included in their entirety as the Appendix.
                            TABLE OF CONTENTS



INTRODUCTION                                     1


     BACKGROUND                                  1

         Outpatient Prospective Payment System   1

         Oxaliplatin                             1

         Hilo Medical Center                     1


     OBJECTIVE, SCOPE, AND METHODOLOGY           1

          Objective                              1

          Scope                                  1

          Methodology                            2


FINDING AND RECOMMENDATIONS                      2


     MEDICARE REQUIREMENTS                       2


     INCORRECT NUMBER OF SERVICE UNITS BILLED    3


    RECOMMENDATIONS                              3


    HILO MEDICAL CENTER COMMENTS                 3


APPENDIX


    HILO MEDICAL CENTER COMMENTS





                                       11
                                       INTRODUCTION


BACKGROUND


Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Outpatient Prospective Payment System

Pursuant to the Balanced Budget Act of 1997, P.L. No. 105-33, CMS implemented an outpatient
prospective payment system (OPPS) for hospital outpatient services. The OPPS applies to
services furnished on or after August 1, 2000.

Under the OPPS, Medicare pays for services on a rate-per-service basis using the ambulatory
payment classification group to which each service is assigned. The OPPS uses the Healthcare
Common Procedure Coding System (HCPCS) to identify and group services into an ambulatory
payment classification group.

Oxaliplatin

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1,2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

HHo Medical Center

Hilo Medical Center is an acute-care hospital located in Hilo, Hawaii. Hilo Medical Center's
Medicare claims are processed and paid by Palmetto GBA, the Medicare administrative
contractor for Hawaii.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Hilo Medical Center billed Medicare for oxaliplatin in
accordance with Medicare requirements.

Scope

We identified four claims for which Hilo Medical Center billed HCPCS code C9205 for more
than 100 service units of oxaliplatin and received Medicare payments totaling $119,288 for
oxaliplatin furnished to hospital outpatients during calendar year (CY) 2004. Before the start of
our audit, Hilo Medical Center and the Medicare administrative contractor corrected two of the
four claims. We reviewed the remaining two claims with Medicare payments totaling $64,915.
We limited our review of Hilo Medical Center's internal controls to those applicable to billing
for oxaliplatin services because our objective did not require an understanding of all internal
controls over the submission of claims. Our review allowed us to establish reasonable assurance
of the authenticity and accuracy of the data obtained from CMS's National Claims History file
for CY 2004, but we did not assess the completeness of the file.

We performed our audit from December 2008 through March 2009.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Medicare laws, regulations, and guidance;

   •	 used CMS's National Claims History file for CY 2004 to identify Medicare claims for
      which Hilo Medical Center billed at least 100 service units of oxaliplatin under HCPCS
      code C9205 and received Medicare payments for those units;

   •	 contacted Hilo Medical Center to determine whether the identified oxaliplatin services
      were billed correctly and, if not, why the services were billed incorrectly;

   •	 obtained and reviewed records from Hilo Medical Center that supported the identified
      claims; and

   •	 repriced incorrectly billed service units using ambulatory payment classification groups
      payment information for the billed HCPCS codes.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

During CY 2004, Hilo Medical Center did not bill Medicare in accordance with Medicare
requirements for the two oxaliplatin outpatient claims that we reviewed. Hilo Medical Center
billed Medicare for an incorrect number of service units for those claims and received
overpayments totaling approximately $59,980. The overpayments occurred because of
confusion related to two oxaliplatin HCPCS codes that had different service unit sizes.

MEDICARE REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. CMS's "Medicare Claims
Processing Manual," Pub. No. 100-04, chapter 4, section 2004, states: "The definition of service


                                               2

units ... is the number of times the service or procedure being reported was performed." In
addition, chapter 1, section 80.3.2.2, of this manual states: "In order to be processed correctly
and promptly, a bill must be completed accurately."

Through CMS Transmittal A-03-0S1, Change Request 2771, dated June 13,2003, CMS
instructed hospital outpatient departments to bill for oxaliplatin using HCPCS code C920S
effective July 1,2003. The description for HCPCS code C920S is "injection, oxaliplatin, per
S [milligrams]." Therefore, for each S milligrams of oxaliplatin administered to a patient,
outpatient hospitals should have billed Medicare for one service unit during our audit period.

Effective January 1, 2006, CMS instructed hospitals to bill Medicare for oxaliplatin using
HCPCS code J9263. The service unit for that code is O.S milligrams.

INCORRECT NUMBER OF SERVICE UNITS BILLED

During CY 2004, Hilo Medical Center billed Medicare for an incorrect number of service units
for the two oxaliplatin outpatient claims that we reviewed. Rather than billing one service unit
for each S milligrams of oxaliplatin administered, as Medicare required, Hilo Medical Center
billed one service unit for each O.S milligrams administered. For the two claims, Hilo Medical
Center received overpayments totaling approximately $S9,980.

The overpayments occurred because of confusion related to oxaliplatin HCPCS codes C920S and
J9263, which had different service unit sizes.

RECOMMENDATIONS

We recommend that Hilo Medical Center:

   •	 work with the Medicare administrative contractor to adjust the two claims and refund
      approximately $S9,980 in identified overpayments and

   •	 ensure that service units of drugs billed correspond to units of drugs administered.

HILO MEDICAL CENTER COMMENTS

In its comments on our draft report, Hilo Medical Center stated that it had submitted the
repayments and implemented corrective actions going forward. Hilo Medical Center's
comments are included in their entirety as the Appendix.




                                                 3

APPENDIX

                                                                                                                                               APPENDIX

                                                                                                                                                Page 1 of2





                                                                                                  Stephen Palmore
                                                                                                  Regional Compliance Officer & Risk Manager
                                                                                                  1190 Walanuenue Ave.
                                                                                                  Hllo, HI 96720
                                                                                                  (808j 974-6913 phone
                                                                                                  (808j 933-9901 fax
                                                                                                  spalmore@hhsc.org




April 1, 2009

Lori Ahlstrand
Office of Inspector General
Region IX
Office of Audit Services
90 - 7ti1 Street, Suite 3 - 650
San Francisco, CA 94103



Dear Ms. Ahlstrand,

Re: Draft Report (Oxallplatln)

Thank you for the opportunity to make comments on the Draft Report (see attached). The report has been
circulated to all of our compliance committee including the Business Office and Pharmacy.

We had only one comment to add to the report and that is on the last page. I have attached the excerpt from
that page for your convenience.

  Effective January 1,2006, CMS instructed hospitals to bill for oxaJiplatin using HepCS code
  J9263. The service unit for that code is 0.5 milligrams.

It states that the HCPCS code J9263 is effective January 1, 2006.

We received a J9263 notification, which prOVided an effective date of January 1, 2004, I have attached the
excerpt from that notification for you convenience. This notification was presented to the OIG aud~ division in ~
entirety as exhibit N.

          S~rch                                                                                                                Attaohmetnt N



                ;;916:<
             ,,!,.~.~:.~.1?',~        ,~l~_~.

             1f1J~tjon,         clUlItlpi-illtin,'O.51tl5.·





                     EftltCt1ve:          O~/01l200<C



                     C~rrOCt H.ne$!

                     EtoXolltln

                          HCPCS Gutdet10iH
                           InlroodUl:ttort
                          CPTIlD Anfstant

                            S"lIrch for thf. lCode In CF"T'C A$SISoUInt





            <'I"Y'   fi ropylight.1.f.I03 ~k;Hl Medtl:lit AA1cXJJ:lI.!nl'l. AU Ale:N-.'l: ~e-rvr.d.
            NO foMl' "~n..alA~, l;>.lo.. k ... nl\~, ,~l,l_ ""'I\.X!\. .... ' ''lll''~ U>.th¥ ~'" IIKtv<~ in CPT.•

            NM <jQ.c~ not dl~ Qr lnr'ire<:;U)' pI'(i,,,th:4: ~0l)e ~ dISP4N'1U' m«/"/("a!             ~M.;<lI'h

            "MA 4J"~ no 11~lttW tor 48Ul1 c:~nU1rl'\oC'4 Of not wl'lt.:llint'd' W'i-eln.

            Ct:rT    i~   a t.rSldl&ffiflin< <>( d14l"   ~M MI6d~~.l A6.~IIllt,lon

            ~ll(:.M)It1"        FAR'loJOl'JCLft\. Re'lof,f'ktton.s-   ~   to-   ~nu.offl.   Uw

                          ........ f?r.mrm2:;;dWifu:~M?:f~~:~;:~i:% ;;i3:M~#~f.~M:i~ili%%wm%?®?-~:~ HH~l@~

                                                                                                                   APPENDIX

                                                                                                                    Page 2 of2





• Page 2                                                                                    April 1, 2009
The effective date for the above states 1f1/04 which was mistaken as being applicable to Medicare as well as
other insurance companies. It was later noted that this J-code effective date was not meant for Medicare. This
placed the healthcare facility at greater risk for error. Hilo Medical Center however recognizes that we had the
responsibility to understand the differences and accept that we erred and now have a heightened awareness
and have implemented corrective actions going forward.

Please note that Hilo Medical Center has initiated and submitted the repayments per the recommendations,

Piease call upon me should you have any questions. Thank you




Sincerely,




Stephen Palmore RN
Risk and Compliance Officer


Cc:     Compliance Committee
